No. 19-386
In the

Supreme Court of the United States
MONROE COUNTY COMMISSION,
Petitioner,
v.
A.A. NETTLES, SR. PROPERTIES LIMITED
AND EULA LAMBERT BOYLES,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of A labama

BRIEF OF THE ASSOCIATION OF
AMERICAN RAILROADS AS AMICUS
CURIAE IN SUPPORT OF PETITIONER
K athryn D. Kirmayer
Timothy J. Strafford
A ssociation of A merican
Railroads
425 Third Street, SW
Washington, DC 20024
(202) 639-2100

Charles G. Cole
Counsel of Record
A nthony J. LaRocca
Peter W. Denton
Steptoe & Johnson LLP
1330 Connecticut Avenue, NW
Washington, DC 20036
(202) 429-3000
ccole@steptoe.com

Attorneys for Amicus Curiae
Association of American Railroads
November 12, 2019
292415

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
STATEMENT OF INTEREST OF
AMICUS CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

T h e Un c e r t a i nt y C r e a t e d by t h e
Decision Below Requires Guidance from
This Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. Cong ress Expressly Placed Rail
Line Abandonments Under Exclusive
Federal Authority  . . . . . . . . . . . . . . . . . . . . . 5
B. The Decision Below Conflicts With
Nu m e r o u s C o u r t a n d A g e n c y
Decisions Ruling that Rail Lines
Ca n not Be R emoved F rom t he
National Rail Network Without STB
Authorization  . . . . . . . . . . . . . . . . . . . . . . . . . 8
C. Without Guidance from this Court,
the Decision Below Will Create
Confusion and Promote Unnecessary
Lit ig at ion O ver P rop er t y T hat
Is In the National Rail Network  . . . . . . . . 13

ii
Table of Contents
Page
II. A Grant of Certiorari Will Allow This Court
to Address the Conflict Between the Decision
Below and Federal Court Decisions Regarding
the Scope of ICCTA Preemption . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Allied Erecting & Dismantling Co., Inc. v. STB,
835 F.3d 548 (6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 8
Cedarapids, Inc. v. Chi., Cent. & Pac. R. Co.,
265 F. Supp. 2d 1005 (N.D. Iowa 2003) . . . . . . . . 11, 12
Chi. & Nw. Transp. Co. v. Kalo Brick & Tile Co.,
450 U.S. 311 (1981)  . . . . . . . . . . . . . . . . . . . . . . . 2, 9, 10
City of Auburn v. United States,
154 F.3d 1025 (9th Cir. 1998) . . . . . . . . . . . . . . . .  16, 17
City of Des Moines v. Chi. & Nw. Ry.,
264 F.2d 454 (8th Cir. 1959) . . . . . . . . . . . . . . . . . . . . 10
City of Lincoln v. Surface Transp. Bd.,
414 F.3d 858 (8th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 14
City of S. Bend v. Surface Transp. Bd.,
566 F.3d 1166 (D.C. Cir. 2009) . . . . . . . . . . . . . . .  11, 14
Gibbons v. United States,
660 F.2d 1227 (7th Cir. 1981) . . . . . . . . . . . . . . . . . . . . 6
Hayfield N. R.R. Co. Inc. v.
Chi. & N.W. Transp. Co.,
467 U.S. 622 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

iv
Cited Authorities
Page
N.Y. Susquehanna & W. Ry. v. Jackson,
500 F.3d 238 (3d Cir. 2007)  . . . . . . . . . . . . . . . . . . . .  17
Port City Prop. v. Union Pac. R.R. Co.,
518 F.3d 1186 (10th Cir. 2008) . . . . . . . . . . . . . . . . . . . 8
Preseault v. ICC,
494 U.S. 1 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
R.R. Ventures, Inc. v. Surface Transp. Bd.,
299 F.3d 523 (6th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 11
Riffin v. Surface Transp. Bd.,
733 F.3d 340 (D.C. Cir. 2013) . . . . . . . . . . . . . . . . . . . . 6
Thompson v. Tex. Mexican Ry.,
328 U.S. 134 (1946)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Transit Comm’n v. United States,
289 U.S. 121 (1933)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Wis. Cent. Ltd. v. City of Marshfield,
160 F. Supp. 2d 1009 (W.D. Wis. 2000) . . . . . . . . . . .  17
Regulatory Decisions
14500 Limited LLC—Petition for Declaratory
Order,
STB Docket No. FD 35788, 2014 WL 2608812
(STB served June 5, 2014) . . . . . . . . . . . . . . . . . . . . . 14

v
Cited Authorities
Page
Alabama Railroad Co.—Abandonment
Exemption—in Monroe Cty., Ala.,
STB Docket No. AB 463 (Sub-No. 1X),
2013 1701800 (STB served Apr. 19, 2013) . . . . . . . . . . 7
Cerro Gordo Cty., Iowa—Adverse
Abandonment—Backtrack, Inc.,
STB Docket No. AB 1063, 2010 WL 3285655
(STB served Aug. 19, 2010)  . . . . . . . . . . . . . . . . . . . . 12
CSX Transp., Inc.—Petition for Declaratory
Order,
STB Docket No. FD 34662, 2005 WL 584026
(STB served Mar. 14, 2005) . . . . . . . . . . . . . . . . . . . .  17
Fillmore & W. Freight Serv., LLC—Emergency
Pet. for Declaratory Order,
STB Docket No. FD 35813, 2015 WL 1119740
(STB served Mar. 12, 2015) . . . . . . . . . . . . . . . . . . . . 12
Jie Ao and Xin Zhou—Petition for Declaratory
Order,
STB Docket No. FD 35539,
2012 WL 2047726
(STB served June 6, 2012) . . . . . . . . . . . . . . .  13, 14, 15
Norfolk & W. Ry.—Abandonment Between St.
Marys & Minster in Auglaize Cty., Ohio,
9 I.C.C. 2d 1015, 1993 WL 427730
(ICC effective Oct. 25, 1993)  . . . . . . . . . . . . . . . . . . . . 8

vi
Cited Authorities
Page
Norfolk S. Ry. Co.—Petition for Declaratory
Order,
STB Docket No. FD 35196, 2010 WL
691256 (STB served Mar. 1, 2010) . . . . . . . . . . . . . . . 14
State Court Opinions and Orders
Calumet Realty, L.P. v.
Chi. Rail Link, LLC & Omnitrax—
Memorandum Opinion and Order,
No. 16 CH 7380 (Ill. Cir. Ct. Cook County
June 5, 2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Statutes
ICC Termination Act of 1995,
Pub. L. No. 104-88, 109 Stat. 803 (1995)  . . . . . passim
National Trails System Act,
Pub. L. 90-543, 82 Stat. 919
(codified, as amended, at
16 U.S.C. § 1241 et seq.)  . . . . . . . . . . . . . . . . . . 3, 4, 8, 9
16 U.S.C. § 1247(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
National Trails System Act Amendments of 1983,
Pub. L. 98-11, 97 Stat. 48 . . . . . . . . . . . . . . . . . . . . .  2-3
Transportation Act of 1920, ch. 91,
§ 402(18)–(22), 41 Stat. 477–478 . . . . . . . . . . . . . . . . . . 5

vii
Cited Authorities
Page
49 U.S.C. § 10102(9)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 U.S.C. § 10501(b) . . . . . . . . . . . . . . . . . . . . . .  6, 7, 16, 17
49 U.S.C. § 10903  . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 9, 10-11
49 U.S.C. § 10903(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 U.S.C. § 10903(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 U.S.C. § 10906  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
STATEMENT OF INTEREST OF AMICUS CURIAE1
Amicus Curiae Association of American Railroads
(AAR) is an incorporated, nonprofit trade association
representing the nation’s major freight railroads, many
smaller freight railroads, Amtrak, and some commuter
authorities. AAR’s members operate the vast majority
of the rail industry’s line haul mileage. In matters of
significant interest to its members, AAR frequently
appears on behalf of the railroad industry before
Congress, the courts and administrative agencies. AAR
seeks to participate as amicus curiae to represent the
views of its members when a case raises an issue of
importance to the rail industry as a whole.
This case meets that criterion. The decision of the
Supreme Court of Alabama removed a rail line from the
national rail network through the operation of state law.
That decision undermines the exclusive authority granted
by Congress to the Surface Transportation Board (STB)
to regulate the removal of railroad property from the
national rail network.
The decision below conflicts with decisions of this
Court, the federal courts of appeals, the federal statute
governing railroad regulation, and agency decisions
implementing the governing statute, all of which recognize
1. Pursuant to Supreme Court Rule 37, amicus curiae states
that no counsel for any party to this dispute authored this brief
in whole or in part, and no person or entity other than amicus
curiae and its counsel contributed money that was intended to
fund preparing or submitting the brief. Amicus curiae gave
timely notice of its intention to file this brief, and the parties have
consented in writing to the filing of this brief under Rule 37(b).

2
the STB’s exclusive authority over rail line abandonments.
By sanctioning the use of state law to remove railroad
property from the national rail network, the decision will
create uncertainty and encourage challenges to railroad
property rights under state law. If left to stand, the
decision could lead to a patchwork removal of property
from rail service under state law that would adversely
affect railroads’ ability to carry out their statutory
obligations as common carriers.
SUMMARY OF THE ARGUMENT
For nearly a century, federal law has provided that a
rail line used to provide common carrier service cannot be
removed from the national rail network until the federal
agency responsible for railroad regulation, currently the
STB, authorizes its abandonment. Chi. & N.W. Transp.
Co. v. Kalo Brick & Tile Co., 450 U.S. 311, 323 (1981)
(“Kalo Brick”). Here, a railroad ceased using its rail line
to support rail operations but it did not obtain authority
from the STB to remove the property from the national
rail network. Nevertheless, the Alabama Supreme Court
concluded that “[w]hen the railroad undisputedly ceased
using the right-of-way for railroad purposes, under
Alabama property law, its right-of-way across Eula’s
property lapsed by nonuse . . . divesting [the railroad] of
any further interest in the property.” Pet. App. 12a. The
decision concluded that the federal law governing rail
line abandonments did not apply because the federal law
governing rail transportation preempts only the States’
“economic” regulation of railroads, not state property law.
The case below arose in the context of the National
Trails System Act Amendments of 1983, Pub. L. 98-11, 97

3
Stat. 48, to the National Trails System Act (Trails Act),
Pub. L. 90-543, 82 Stat. 919 (codified, as amended, at 16
U.S.C. § 1241 et seq.). Specifically, the railroad quitclaimed
its right-of-way to Petitioner for conversion to interim trail
use pursuant to the regulations implementing the Trails
Act.2 In the Trails Act, Congress authorized the Interstate
Commerce Commission (ICC), the STB’s predecessor, “to
preserve for possible future railroad use rights-of-way not
currently in service and to allow interim use of the land as
recreational trails.” Preseault v. ICC, 494 U.S. 1, 6 (1990).
The Trails Act provides that the interim trail use “shall
not be treated, for any purposes of any law or rule of law,
as an abandonment of the use of such rights-of-way for
railroad purposes.” 16 U.S.C. § 1247(d). The STB approved
the interim use of the rail line as a trail pending possible
future reactivation and use in railroad operations.
AAR agrees with Petitioner that the decision below,
which relied on state law to prevent the conveyance of the
railroad’s property interest to Petitioner, conflicts with
numerous court decisions upholding the conversion of
rail lines to trails under the Trails Act. But AAR is also
concerned about a broader conflict with federal law on the
regulation of rail line abandonments that arises from the
reasoning of the Alabama Supreme Court. The Alabama
Court concluded that the railroad’s property rights in
the rail line could not be conveyed to Petitioner for trail
use because those rights had been extinguished under
state law through non-use. That conclusion effectively
removed the rail line from the national rail network
2. Petition for Certiorari at 7. AAR adopts the description
of relevant facts as set out in the Petition for Certiorari and does
not repeat those facts except as relevant to AAR’s argument.

4
through the operation of state law, in direct conflict with
numerous court and agency decisions acknowledging
Congress’s explicit grant of exclusive authority over rail
line abandonments to the STB. The Alabama Court’s
conclusion is wrong and could seriously undermine the
administration of the national rail network by the STB and
the effective management by railroads of property that
is needed to carry out their common carrier obligations.
If the decision is left to stand, railroads will inevitably
face increased state law claims seeking to extinguish
railroads’ rights to rail property. Patchwork regulation of
property in the national rail network under varying state
law standards would undermine the unified federal scheme
of railroad regulation that Congress established over a
century ago and would interfere with railroads’ ability
to carry out their common carrier service obligations.
AAR urges the Court to grant certiorari to eliminate this
uncertainty before an expansion of litigation under state
law leads to a fragmentation of the national rail network.
ARGUMENT
I.

The Uncertainty Created by the Decision Below
Requires Guidance from This Court.

The federal scheme of rail regulation calls for a
uniform approach to the abandonment of rail lines that
have been used to provide rail transportation service, to
be administered by a single federal regulator. The decision
below defies that federal regulatory regime. Not only
does the decision conflict with numerous federal court
decisions involving the use of rail lines under the Trails
Act, it also conflicts with long-standing law regarding the

5
regulation of common carrier railroads. If left to stand, it
will encourage property owners in Alabama and in other
states to seek to divest railroads of their interests in
railroad property, potentially leading to the fragmentation
of the national rail network.
A.

Cong re s s Ex pre s sly Pla ced R a il Li ne
Abandonments Under Exclusive Federal
Authority

Before 1920, railroads seeking to initiate or terminate
common carrier service over rail lines were subject to
a range of conflicting state and federal requirements.
Congress concluded that this patchwork of entry and
exit regulation of the national rail network needed to be
eliminated. As this Court explained:
Prior to . . . 1920, regulations . . . by federal and
state authorities were frequently conflicting,
and often the enforcement of state measures
interfered with, burdened, and destroyed
interstate commerce. Multiple control . . . of
matters affecting [interstate rail] transportation
has been found detrimental to the public
interest as well as to the carriers. Dominant
federal action was imperatively called for.
Transit Comm’n v. United States, 289 U.S. 121, 127 (1933).
The Transportation Act of 1920, ch. 91, § 402(18)–
(22), 41 Stat. 477–478, expressly addressed rail line
abandonments, replacing the existing patchwork of state
and federal entry and exit regulation with a unified
federal regulatory scheme administered by a single
federal agency, the ICC. “The Transportation Act [of 1920]

6
prohibited a carrier from abandoning any portion of a
line without first obtaining from the [ICC] a certificate of
abandonment verifying that the future public convenience
and necessity permitted the cessation of the carrier’s rail
service.” Hayfield N. R.R. Co., Inc. v. Chi. & N.W. Transp.
Co., 467 U.S. 622, 628 (1984).
Unified federal control over the removal of rail lines
from the national rail network was and continues to be
a crucial element in the federal rail regulatory scheme.
So long as a rail line is in the national rail network, a
railroad authorized to operate over that line is subject
to common carrier obligations toward the public. “[I]f a
line of rail track has not been abandoned or embargoed
[a temporary cessation of service], there is ‘an absolute
duty to provide rates and service over the [l]ine upon
reasonable request,’ and a ‘failure to perform that duty
[is] a violation of [the statutory provision establishing
common carrier obligations].” Riffin v. Surface Transp.
Bd., 733 F.3d 340, 347 (D.C. Cir. 2013) (citations omitted).
Since abandonment of a line “terminates a rail carrier’s
public service obligation,” Gibbons v. United States, 660
F.2d 1227, 1234 (7th Cir. 1981), the public has a strong
interest in rail line abandonments.
In 1995, Congress abolished the ICC and transferred
the ICC’s responsibilities to the STB, including
responsibility for rail line abandonment. ICC Termination
Act of 1995 (“ICCTA”), Pub. L. No. 104-88, 109 Stat. 803
(1995). Consistent with prior law, ICCTA establishes
that the STB’s authority over rail line abandonments
is exclusive: “The jurisdiction of the Board over . . .
transportation by rail carriers . . . is exclusive.” 49
U.S.C. § 10501(b). “Transportation” is broadly defined in
the statute to include “property . . . of any kind related

7
to the movement of passengers or property, or both,
regardless of ownership or an agreement concerning
use.” Id. at § 10102(9)(A). Moreover, to reinforce the STB’s
exclusive authority over regulatory matters such as rail
line abandonment, ICCTA included a broad preemption
provision stating that “the remedies provided under this
part with respect to the regulation of rail transportation
are exclusive and preempt the remedies provided under
Federal or State law.” Id. at § 10501(b).
ICCTA specifically addresses rail line abandonments.
The statute provides that “[a] rail carrier providing
transportation subject to the jurisdiction of the Board
. . . who intends to . . . abandon any part of its railroad
lines . . . must file an application relating thereto with
the Board. An abandonment . . . may be carried out only
as authorized under this chapter.” 49 U.S.C. § 10903(a)
(1). The statute further provides that “[a] rail carrier
providing transportation subject to the jurisdiction of
the Board under this part may . . . abandon any part
of its railroad lines . . . only if the Board finds that the
present or future public convenience or necessity require
or permit the abandonment. . . .” Id. at § 10903(d). The
right-of-way at issue in the decision below is a “rail line”
subject to the Section 10903 requirement for obtaining
STB approval for abandonment, as evidenced by the STB’s
treatment of the right-of-way as a “rail line” in its decision
implementing interim trail use. See Alabama Railroad
Co.—Abandonment Exemption—in Monroe Cty., Ala.,
STB Docket No. AB 463 (Sub-No. 1X), 2013 1701800, at
*3 (STB served Apr. 19, 2013). 3
3. ICCTA provides an exception to the STB approval
requirement for the abandonment of certain types of tracks, not
at issue here, that are ancillary to rail lines. 49 U.S.C. § 10906.
The STB continues to have jurisdiction over these “excepted”

8
B. The Decision Below Conflicts With Numerous
Court and Agency Decisions Ruling that Rail
Lines Cannot Be Removed From the National
Rail Network Without STB Authorization.
The Alabama Supreme Court failed to give effect
to the STB’s exclusive role in authorizing rail line
abandonments, as mandated by the federal statute, 49
U.S.C. § 10903. It found that a railroad right-of-way
created by reservation in a quitclaim deed with a local
property owner was “extinguished by operation of [state]
law.” Pet. App. 11a. While the railroad had ceased using
the right-of-way for active railroad purposes, the STB
did not allow the rail line to be removed from the national
rail network but instead approved the interim use of
the rail line as a trail under the Trails Act. Approval of
interim trail use means that the rail line is not removed
from the national rail network and may, if necessary, be
returned to rail service in the future. See, e.g., Norfolk
& W. Ry.—Abandonment Between St. Marys & Minster
in Auglaize Cty., Ohio, 9 I.C.C. 2d 1015, 1993 WL 427730
(ICC effective Oct. 25, 1993). The Alabama Court found
that the railroad could not convey the right-of-way to
Petitioner because the railroad had lost its underlying
interest in the property through non-use: “When the
railroad undisputedly ceased using the right-of-way
for railroad purposes, under Alabama property law, its
right-of-way across Eula’s property lapsed by nonuse.”
Pet. App. 12a. The Court further explained: “In other
words, the railroad’s inaction in failing to use its right of
tracks, but the “construction and disposition” of excepted tracks
“are left in the hands of railroad management.” Allied Erecting &
Dismantling Co., Inc. v. Surface Transp. Bd., 835 F.3d 548, 550
(6th Cir. 2016) (quoting Port City Prop. v. Union Pac. R.R. Co.,
518 F.3d 1186, 1188 (10th Cir. 2008)).

9
way terminated the right-way-of [sic], divesting it of any
further interest in the property.” Id.
The Petition explains that the ruling of the Court below
conflicts with the Trails Act and with numerous federal
court decisions holding that the Trails Act preempts
state property law in the circumstances presented here.
AAR submits that the ruling below also conflicts with
other long-standing federal precedent on the regulation
of rail line abandonments. Those decisions, including
decisions by this Court, recognize that the federal rail
regulator must authorize rail line abandonments, and that
this requirement applies regardless of the rail carrier’s
underlying property or contract rights to the rail line.
In Thompson v. Texas Mexican Railway Co., 328
U.S. 134 (1946) (“TexMex”), this Court held that when
a trackage rights agreement allowing a rail carrier to
provide service over an existing rail line was terminated
pursuant to its terms, the rail carrier could not be forced
off of the rail line without first obtaining abandonment
authority from the ICC. Noting that termination of service
obligations over rail lines involves “phases of the public
interest,” the Court found that “[t]hough the contract
were terminated pursuant to its terms, a certificate [of
abandonment] would still be required under [a predecessor
to 49 U.S.C. § 10903.] Id. at 143-45.
Consistent with this Court’s ruling in TexMex,
this Court recognized that “the exclusive and plenary
nature of the [ICC/STB’s] authority to rule on carriers’
decisions to abandon lines is critical to the congressional
scheme, which contemplates comprehensive regulation
of interstate commerce.” Kalo Brick, 450 U.S. at 321. As
this Court explained:

10
[T]he construction of the applicable federal law
is straightforward and unambiguous. Congress
granted to the [ICC] plenary authority to
regulate, in the interest of interstate commerce,
rail carriers’ cessations of service on their lines.
And at least as to abandonments, this authority
is exclusive.
Id. at 323. The ruling in the decision below that rail lines
can be removed from the national rail network based
on state law, without regard to the STB’s abandonment
authority under federal law, directly conflicts with these
decisions of this Court.
The reasoning of the Alabama Court also conflicts with
decisions of the federal courts of appeals which, following
the Supreme Court precedent, have repeatedly found that
state and local law cannot be used to bypass the exclusive
authority of the ICC/STB over rail line abandonments. In
City of Des Moines v. Chicago & Northwest Railway Co.,
264 F.2d 454, 457 (8th Cir. 1959), the City of Des Moines
sought to oust a railroad from occupation of a city street
on grounds that the railroad “had violated the conditions
of the grant by which it originally had been permitted to
use the street for right of way purposes. . . .” Id. at 455.
Relying on TexMex, the Eighth Circuit found that “[r]
egardless, however, of whether a valid forfeiture would
have existed under the ordinance [creating the railroad’s
right-of-way], a court could still not decree an ouster of
the Railway from the street . . . until the [ICC] gave its
permission to such abandonment or discontinuance being
made.” Id. at 457.
The Sixth Circuit has also acknowledged that the
federal statute governing rail regulation, 49 U.S.C.

11
§ 10903, provides the STB with exclusive authority to
remove rail lines from the national rail network: “if
a railroad line falls within its jurisdiction, the STB’s
authority over abandonment is both exclusive and plenary.”
R.R. Ventures, Inc. v. Surface Transp. Bd., 299 F.3d 523,
530-31 (6th Cir. 2002) (citations omitted).
The Court of Appeals for the District of Columbia
similarly concluded that the City of South Bend, Indiana,
could not acquire certain rail lines that ran through
the city without first obtaining the STB’s abandonment
authority, noting that “[a] rail carrier may abandon a
line . . . ‘only if the Board finds that the present or future
public convenience and necessity require or permit the
abandonment.’” City of S. Bend v. Surface Transp. Bd.,
566 F.3d 1166, 1168 (D.C. Cir. 2009) (“City of S. Bend”).
As in the case below, the rail lines in City of S. Bend
had not been maintained by the rail carrier and were
not being used for rail purposes, but an STB-authorized
abandonment was still necessary before the lines could
be removed from the national rail network.
Lower federal courts and state courts have consistently
followed the Supreme Court and appellate court
decisions in finding that the STB’s authority over rail
line abandonments is exclusive and plenary and is not
diminished or displaced by state law. For example, in
Cedarapids, Inc. v Chicago, Central & Pacific Railroad
Co., 265 F. Supp. 2d 1005 (N.D. Iowa 2003), a railroad
leased land to the plaintiff that included a railroad rightof-way but reserved all railroad operating rights. When
the railroad subsequently decided to use the property for
rail car storage, the plaintiff brought an action in state
court arguing, among other things, that the railroad’s
interest in the land “has been extinguished by its lack

12
of use of the tracks” under Iowa law. Id. at 1007. After
removal of the action to federal court, the court concluded
that the plaintiff’s attempt to force the railroad to abandon
the line under state law due to alleged non-use of the
tracks conflicted with the STB’s exclusive authority
over abandonment: “the issues of the classification and
the abandonment of the tracks in question are within
the exclusive jurisdiction of the STB.” See also Calumet
Realty, L.P. v. Chi. Rail Link, LLC and Omnitrax—
Memorandum Opinion and Order, No. 16 CH 7380 (Ill.
Cir. Ct. Cook County June 5, 2019) (railroad’s right to use
a rail line could not be extinguished under state law even
though the railroad had not used the property for railroad
purposes for over 20 years).
The federal agency responsible for administering
the federal rail regulatory regime is often asked to
resolve disputes over rail line abandonments and it has
repeatedly followed the established precedent described
above in confirming that “[t]he Board has exclusive and
plenary jurisdiction over rail line abandonments and
discontinuances of service to protect the public from
unnecessary discontinuance, cessation, interruption, or
obstruction of available rail service.” Cerro Gordo Cty.,
Iowa—Adverse Abandonment—Backtrack, Inc., STB
Docket No. AB 1063, 2010 WL 3285655, at *1 (STB served
Aug. 19, 2010). Consistent with the federal court decisions
described above, the STB recognizes that this authority
exists regardless of the existence of a valid state law
right to the underlying property. See, e.g., Fillmore & W.
Freight Serv., LLC—Emergency Pet. for Declaratory
Order, STB Docket No. FD 35813, 2015 WL 1119740,
at *3 (STB served Mar. 12, 2015) (“any party seeking
the abandonment of a rail line, or discontinuance of rail

13
service, must first obtain appropriate authority from the
Board . . . notwithstanding any contractual arrangement
(or the termination thereof) between parties regarding
cessation of rail service or use of a rail line”).
C.

Without Guidance from this Court, the Decision
Below Will Create Confusion and Promote
Unnecessary Litigation Over Property That
Is In the National Rail Network.

The Alabama Court’s conclusion that state law can
determine when a rail line can be removed from the
national rail network is wrong as a matter of law. Moreover,
it undermines the effective regulation by the STB of the
national rail network and railroads’ management of their
extensive property holdings. The ruling that non-use of
rail property may result in its removal from the national
rail network through operation of state law is particularly
troubling in light of the diverse circumstances in which
such claims have already been made.
In Jie Ao and Xin Zhou—Petition for Declaratory
Order, STB Docket No. FD 35539, 2012 WL 2047726, at
*1 (STB served June 6, 2012) (“Ao Zhou”), two property
owners adjacent to a rail line sought adverse possession
of certain portions of the right-of-way that were not
currently being used for railroad operations. The STB
stated that its “broad and exclusive jurisdiction over
railroad operations and activities prevents application of
state laws that would otherwise be available, including
condemnation to take rail property for another use that
would conflict with the rail use.” Id. at *5. The STB
acknowledged that in the particular circumstances of
the case (as here, the rail line was being used as a trail),

14
adverse possession of the property “might have little
actual, practical effect on current plans for active railroad
operations, [but] circumstances can change.” Id. at *7.
See also 14500 Limited LLC—Petition for Declaratory
Order, STB Docket No. FD 35788, 2014 WL 2608812, at
*1 (STB served June 5, 2014) (adverse possession claim
under Ohio law could not proceed even though the rail
property at issue had been used for non-rail purposes for
more than 20 years).
If state courts could extinguish railroads’ property
rights based on their varying views of what constitutes a
railroad’s non-use of property, the national rail network
would become fragmented and unmanageable, with
segments of rail lines being removed from the rail network
without federal oversight or approval. Congress wisely
put a single federal agency in charge of determining
when rail lines can be removed from the network. That
agency regularly applies its expertise in assessing the
future needs of those using and relying on the national
rail network. See, e.g., Norfolk S. Ry. Co.—Petition for
Declaratory Order, STB Docket No. FD 35196, 2010 WL
691256, at *4 (STB served Mar. 1, 2010) (recognizing the
value of railroad property that the railroad was not using
and had no current plans to use, but which might be needed
later for railroad purposes); City of S. Bend, 566 F.3d at
1168 (affirming the STB’s decision to deny efforts by the
city to acquire rail property that was not currently being
used for rail purposes but which had a reasonable potential
for future use); City of Lincoln v. Surface Transp. Bd.
414 F.3d 858, 860 (8th Cir. 2005) (recognizing that “[c]
ondemnation is a permanent action, and it can never be
stated with certainty at what time any particular part of
the right of way may become necessary for railroad uses”)
(citation and internal quotations omitted).

15
Property disputes involving railroad property are
frequent, as reflected in the cases cited above, which are
only a sample of property and contract law challenges to
railroad property rights. State law claims against railroad
property arise in a multitude of circumstances, ranging
from local ordinances, expiration of property leases,
adverse possession claims, and contract conveyances.
The STB recognized the danger in allowing persons
with a purported interest in railroad property to remove
that property from the national rail network through
state law claims, noting that such an approach “would
permit landowners to carve off strips of railroad [rightof-way] all over the country for non-rail use, even though
the Board has not authorized the [right-of-way] to be
permanently removed from the nation’s rail system
under Title 49.” Ao Zhou, 2012 WL 2047726, at *7. If left
undisturbed, the decision below will inevitably encourage
even more challenges to railroad property interests that
could fragment the regulation of railroad property and
undermine the comprehensive regulatory scheme that
Congress established for interstate rail transportation.
II. A Grant of Certiorari Will Allow This Court to
Address the Conflict Between the Decision Below
and Federal Court Decisions Regarding the Scope
of ICCTA Preemption.
Beyond failing to recognize the exclusive role of
federal law over the abandonment of railroad property,
the decision below creates uncertainty over the entire
scope of ICCTA preemption. In reaching its conclusion
that the rail line could be removed from the national rail
network under state law, the Alabama Supreme Court
concluded that it was not bound by federal law governing

16
rail line abandonments because ICCTA was intended
only to preempt “attempts by states to impose economic
regulation on rail transportation,” which did not extend
to “state property laws that existed before the advent of
railroads. . . .” Pet. App. 9a. That narrow construction of
ICCTA’s preemption provision conflicts with numerous
federal court decisions on the scope of ICCTA preemption
and is yet another reason for this Court to grant certiorari.
ICCTA’s express preemption provision provides that
“the remedies provided under this part with respect to
the regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State
law.” 49 U.S.C. § 10501(b). The Alabama Supreme Court
concluded that its authority over the property at issue in
the case turned on the scope of this statutory preemption
provision, which the Court concluded only applies to
“attempts by states to impose economic regulation on
rail transportation” and did not extend to “state property
laws that existed before the advent of railroads . . .” Pet.
App. 9a. Granting certiorari would give this Court an
opportunity to resolve the confusion that will be created by
the decision below, which conflicts with numerous federal
court decisions applying ICCTA preemption.
As explained in detail by Justice Shaw in dissent
from the decision below, “[n]umerous federal court
decisions, however, have rejected the idea that the
ICCTA is limited only to ‘economic’ regulation.” Pet.
App. 29a. Indeed, the reading of ICCTA preemption
as limited to “economic” regulation was put to rest
shortly after ICCTA was enacted. In City of Auburn v.
United States, 154 F.3d 1025 (9th Cir. 1998), the City of
Auburn sought to apply local environmental permitting

17
requirements to a rail construction project, arguing that
ICCTA preemption did not extend beyond “economic”
regulation to encompass environmental regulation. The
court rejected the City’s reading of ICCTA preemption,
finding that “there is nothing in the case law that supports
[the City’s] argument that, through the ICCTA, Congress
only intended preemption of economic regulation of the
railroads.” Id. at 1030. Since City of Auburn, the decision’s
narrow reading of ICCTA preemption has been disavowed
numerous times. See, e.g., N.Y. Susquehanna & W. Ry. v.
Jackson, 500 F.3d 238, 252 (3d Cir. 2007) (ICCTA “does
not preempt only explicit economic regulation.”); Wis.
Cent. Ltd. v. City of Marshfield, 160 F. Supp. 2d 1009,
1014 (W.D. Wis. 2000) (“The ICCTA expressly preempts
more than just state laws specifically designed to regulate
rail transportation”); CSX Transp., Inc.—Petition for
Declaratory Order, STB Docket No. FD 34662, 2005
WL 584026, at *7 (STB served Mar. 14, 2005) (“as the
courts that have examined that provision have uniformly
concluded, any notion that the statutory preemption
in section 10501(b) is limited to direct state and local
economic regulation is contrary to the broad language of
the statute and unworkable in practice.”).
By construing ICCTA preemption as limited to
traditional “economic” regulation, the decision conflicts
with established precedent. This Court plays a critical
role in resolving questions about federal law preemption.
A grant of certiorari here will allow the Court to resolve
the confusion that will be created by the decision below
on the role and scope of ICCTA preemption of state law.
If the decision below is left to stand, railroads could be
subject to expanded regulation of a broad range of railroad
activities under state laws characterized as non-economic

18
regulation—ranging from application of state property
law, tort law and local environmental laws—that would
undermine the interstate rail transportation network and
frustrate Congress’s objective to unify rail regulation
under standards administered by a single federal agency.
CONCLUSION
For the foregoing reasons, the Petition should be
granted.
K athryn D. Kirmayer
Timothy J. Strafford
A ssociation of A merican
Railroads
425 Third Street, SW
Washington, DC 20024
(202) 639-2100

Respectfully submitted,
Charles G. Cole
Counsel of Record
A nthony J. LaRocca
Peter W. Denton
Steptoe & Johnson LLP
1330 Connecticut Avenue, NW
Washington, DC 20036
(202) 429-3000
ccole@steptoe.com

Attorneys for Amicus Curiae
Association of American Railroads
November 12, 2019

